 Department of Health and Human Services
                    OFFICE OF

               INSPECTOR GENERAL





     MEDICARE PAYMENTS TO

    NEW YORK REHABILITATIVE

       SERVICES, LLC, FOR

 LOWER LIMB PROSTHETIC SERVICES

GENERALLY COMPLIED WITH CERTAIN

     FEDERAL REQUIREMENTS

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                     James P. Edert

                                                Regional Inspector General


                                                       January 2013

                                                       A-02-12-01002

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                       INTRODUCTION


BACKGROUND

Medicare Program

The Medicare program, established under Title XVIII of the Social Security Act (the Act) in
1965, provides health insurance to people age 65 and over, people with disabilities, and people
with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS) administers
the Medicare program.

Durable Medical Equipment, Prosthetics, Orthotics, and Supplies

Pursuant to sections 1832(a)(1) and 1861(n) of the Act, Medicare Part B provides for the
coverage of durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS).
Prosthetic devices replace all or part of a body organ. Lower limb prosthetics include foot,
ankle, or shin replacements, and associated parts and supplies (e.g., socks and shoe inserts).

Pursuant to section 1834(a)(11)(B) of the Act, payment for certain DME supplies may be made
only if a physician has communicated to the supplier, before delivery of the item, a written order
for the item. In addition, pursuant to 42 CFR § 424.57(c)(12), payment for DME supplies may
be made only if the supplier maintains proof of delivery of the items to the beneficiary. The
regulations also require that the supplier document that it provided the beneficiary with
necessary information and instructions on how to use the items safely and effectively.

National Heritage Insurance Company

CMS contracts with durable medical equipment Medicare administrative contractors (DME
MAC) to process and pay Medicare Part B claims for DMEPOS. The DME MAC that covers
New York State is National Heritage Insurance Company. Under Medicare Part B, the DME
MAC reimburses DMEPOS suppliers for prosthetic services based on a fee schedule.

New York Rehabilitative Services, LLC

New York Rehabilitative Services, LLC (New York Rehabilitative) is a DMEPOS supplier
located in Lawrence, New York. For calendar years (CY) 2009 and 2010, New York
Rehabilitative received Medicare reimbursement totaling $1,446,784 for 1,631 lower limb
prosthetic services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare payments to New York Rehabilitative for
lower limb prosthetic services complied with certain Federal requirements.




                                                 1

Scope

Our review covered 1,631 claims, totaling $1,446,784, for which New York Rehabilitative
received Medicare reimbursement for services during CYs 2009 and 2010.

We did not assess the overall internal control structure of New York Rehabilitative. Rather, we
limited our review of internal controls to those applicable to the objective of our audit. In
addition, the scope of our audit did not require us to perform a medical review or an evaluation
of the medical necessity of lower limb prosthetic services claimed for reimbursement.

We performed our fieldwork at New York Rehabilitative’s offices in Lawrence, New York and
at various physicians’ offices and beneficiary residences throughout New York City and Long
Island from January 2012 through March 2012.

Methodology

To accomplish our objective, we:

•	 reviewed applicable Medicare laws and regulations;

•	 interviewed National Heritage Insurance Company officials to gain an understanding of the
   DME MAC’s procedures for preventing inappropriate payments for lower limb prosthetic
   services;

•	 interviewed New York Rehabilitative officials to gain an understanding of their policies and
   procedures for claiming Medicare reimbursement for lower limb prosthetic services;

•	 obtained from CMS’s National Claims History File a sampling frame of 1,631 claims for
   lower limb prosthetics services, totaling $1,446,784, for which New York Rehabilitative
   received reimbursement for services during CYs 2009 and 2010;

•	 selected a judgmental sample of 100 claims (associated with 46 beneficiaries and 43 referring
   physicians) from the sampling frame of 1,631 claims and, for each claim:

        o	 reviewed New York Rehabilitative’s files to determine if a physician had
           communicated to New York Rehabilitative, before delivery of the item(s), a written
           order for the item(s);

        o	 reviewed New York Rehabilitative’s documentation of proof of delivery of the
           item(s);

•	 interviewed referring physicians associated with selected sampled claims to verify that the
   physician provided a written order for the item(s) to New York Rehabilitative; and

•	 interviewed beneficiaries associated with selected sampled claims to determine whether the
   beneficiary received the item(s) claimed.


                                                2

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

For the 100 claims for lower limb prosthetic services in our sample, Medicare payments to New
York Rehabilitative generally complied with certain Federal requirements. Specifically,
Medicare payments to New York Rehabilitative for 98 sampled claims for lower limb prosthetic
services complied with certain Federal requirements. However, New York Rehabilitative
improperly claimed Medicare reimbursement for the remaining two sampled claims–both of
which were for specialized gel limb liners–totaling $1,929 due to clerical error. New York
Rehabilitative refunded this amount to the DME MAC after the beginning of our fieldwork. As
a result, this report contains no recommendations.




                                               3

